 INS-O-00-02




 INSPECTION                     INSPECTION OF ALLEGED
                              IMPROPRIETIES REGARDING
   REPORT                      ISSUANCE OF A CONTRACT




                                   DECEMBER 1999




 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
    OFFICE OF INSPECTIONS
                                December 16, 1999


MEMORANDUM FOR THE DIRECTOR, OFFICE OF NUCLEAR
            ENERGY, SCIENCE AND TECHNOLOGY

FROM:              Sandra L. Schneider
                   Assistant Inspector General for Inspections
                   Office of Inspector General

SUBJECT:            INFORMATION: Report on “Inspection of Alleged
                   Improprieties Regarding Issuance of a Contract” (INS-O-00-02)

BACKGROUND

The Office of Inspector General (OIG) received an allegation that the Department of
Energy (DOE) improperly awarded a noncompetitive, multimillion-dollar contract to
General Atomics through another contractor, AlliedSignal. The Office of Inspections,
OIG, initiated an inspection to review the procurement action.

Inquiries determined that the contract in question was for a pilot plant project
associated with the Department’s Depleted Uranium Hexafluoride (UF6) Management
Program, which is administered by the Office of Nuclear Energy, Science and
Technology (NE). Although NE had not solicited proposals, in 1996 NE received a
proposal from General Atomics and AlliedSignal to undertake a cooperative pilot-
scale demonstration of technologies developed by the proposers to address the long-
term disposition of DOE’s inventory of depleted UF6. The then Director of NE had
his staff pursue a contract for the proposed project. NE contacted DOE’s Pittsburgh
Energy Technology Center (PETC), which is now part of the Federal Energy
Technology Center, with the objective of quickly putting a contract in place with
General Atomics/AlliedSignal. In October 1996, PETC issued Burns and Roe
Services Corporation (BRSC), with which it had a requirements contract, a Request
for Support Services pertaining to the pilot project. BRSC did not have the technical
expertise to oversee the intended subcontract with General Atomics; rather, this
expertise resided with a sister company, Burns and Roe Enterprises, Inc. (BRE), with
which BRSC had a subcontract. In November 1996, BRE issued a letter contract to
General Atomics, and General Atomics subcontracted to AlliedSignal.
                                                                          2


RESULTS OF INSPECTION

We found that NE did not process the unsolicited proposal it received from General
Atomics/AlliedSignal in accordance with established Departmental policies and proce-
dures pertaining to unsolicited proposals. We also found that, although other compa-
nies were known to be interested in participating in the Depleted Uranium
Hexafluoride Management Program and were known to have technology similar to
that proposed by General Atomics/AlliedSignal, a competitive procurement was not
pursued. In our view, by pursuing the award of a contract through PETC, NE effec-
tively circumvented Federal requirements designed to promulgate and ensure the ap-
propriate use of competition in contracting. As a result, we recommended that the
Director, Office of Nuclear Energy, Science and Technology (1) ensure unsolicited
proposals received by NE are processed in accordance with applicable Departmental
policies and procedures and (2) ensure that, consistent with Federal requirements for
competition in contracting, NE solicits proposals for its Depleted Uranium
Hexafluoride Management Program that will foster the Department’s pursuit of effec-
tive disposition of its depleted UF6.

MANAGEMENT REACTION

Management agreed that the unsolicited proposal was not handled in accordance with
applicable policies and procedures and stated NE intends to use competitive mecha-
nisms in the pursuit of effective disposition of depleted UF6.


Attachment

cc: Director, Office of Management and Administration
    Director, Federal Energy Technology Center
    Leader, Audit Liaison Team, CR-2
INSPECTION OF ALLEGED IMPROPRIETIES
REGARDING ISSUANCE OF A CONTRACT
TABLE OF
CONTENTS
              Overview.… … … … … … … … … … … … … .       1

              Introduction and Objective… … … … … … .    1

              Observations and Conclusions… … … … .      1

              Background… … … … … … … … … … … … .        2

              Unsolicited Proposal Process Not
              Followed… … … … … … … … … … … … … …        4

              Details of Finding… … … … … … … … … … .    4

              Lack of Competition in Contract
              Award… … … … … … … … … … … … … … … .       7

              Details of Finding… … … … … … … … … … ..   7

              Recommendations… … … … … … … … … ..        8

              Management Comments… … … … … … …           9

              Inspector Comment… .… … … … … … … ..       9

              Appendices:

                Appendix A: Scope and Methodology…       10

                Appendix B: General Atomics/
                AlliedSignal Unsolicited Proposal… … …   11
Overview
INTRODUCTION AND   The Office of Inspector General (OIG) received an
OBJECTIVE          allegation that the Department of Energy (DOE)
                   improperly awarded a multimillion-dollar contract to
                   General Atomics through another contractor, AlliedSignal,
                   for the establishment of a pilot program for mixed waste
                   processing. In particular, concern was expressed about
                   the noncompetitive award of the contract. The Office of
                   Inspections, OIG, subsequently initiated an inspection to
                   review the procurement action.

                   Inquiries determined that the contract in question was
                   actually for a pilot plant project associated with the
                   Department’s program to manage its inventory of depleted
                   uranium hexafluoride (UF6). Although it had not solicited
                   proposals, in the spring or early summer of 1996 the
                   Office of Nuclear Energy (NE), now the Office of Nuclear
                   Energy, Science and Technology, received a proposal
                   from General Atomics and AlliedSignal to undertake a
                   cooperative pilot-scale demonstration of technologies to
                   address the long-term disposition of DOE’s inventory of
                   depleted UF6. Subsequently, the proposal was funded by
                   using a DOE contractor at the Pittsburgh Energy
                   Technology Center (PETC), now part of the Federal
                   Energy Technology Center (FETC), to issue a subcontract
                   to General Atomics, which then subcontracted to
                   AlliedSignal.

OBSERVATIONS       We found that NE did not process the unsolicited proposal
AND CONCLUSIONS    it received from General Atomics/AlliedSignal in
                   accordance with established Departmental policies and
                   procedures pertaining to unsolicited proposals. We also
                   found that, although other companies were known to be
                   interested in participating in the Depleted Uranium
                   Hexafluoride Management Program and were known to
                   have technology similar to that proposed by General
                   Atomics/AlliedSignal, a competitive procurement was not
                   pursued. In our view, by pursuing the award of a contract
                   through PETC, NE effectively circumvented Federal
                   requirements designed to promulgate and ensure the
                   appropriate use of competition in contracting.



Page 1              Inspection of Alleged Improprieties Regarding Issuance
                    of a Contract
Background
             As a result of its gaseous diffusion (uranium enrichment)
             activities, DOE is storing approximately 560,000 metric
             tons of depleted UF6 at 3 sites. The Department initiated
             the Depleted Uranium Hexafluoride Management Program
             to select and implement a long-term management strategy
             for DOE’s depleted UF6. The first phase of the Program
             was to be selection of a management strategy, culminating
             in a Record of Decision that would identify the
             Department’s preferred long-term management strategy.
             Construction and operation of a pilot plant was not
             identified as an element of this phase. The second phase
             of the Program was to be implementation of the
             management strategy, including selection of specific
             technologies and uses thereof, which likely would involve
             the issuance of a request for proposals.

             On November 10, 1994, NE published in the Federal
             Register a notice of “Request for Recommendations” that
             sought recommendations from interested parties for
             potential uses for the depleted UF6, as well as for
             technologies that could facilitate the long-term
             management of this material. The “Request for
             Recommendations” specifically stated that it was not for
             the purpose of obtaining proposals for research,
             development, and demonstration to be funded by the
             Government. A technical assessment of the
             recommendations received in response to the “Request for
             Recommendations” found 51 of the 57 responses to be
             technically feasible. Among the responses found
             technically feasible was a joint submission from General
             Atomics and AlliedSignal, as well as submissions from
             other companies with similar technologies, such as
             Cameco Corporation and COGEMA, Inc. The feasibility
             analysis was intended to be used by DOE in the
             development of alternative strategies to be considered in
             the environmental impact statement that was being
             developed for the long-term management of depleted UF6.

             Although NE had not solicited proposals, sometime in the
             spring or early summer of 1996 NE received a proposal
             from General Atomics and AlliedSignal, similar to their
             submission under the “Request for Recommendations,” to
             undertake a cooperative pilot-scale demonstration of
             technologies developed and patented by the proposers.

Page 2                                                    Background
         General Atomics and AlliedSignal would design, fabricate,
         construct, operate, and evaluate a UF6 throughput plant at
         AlliedSignal’s Metropolis, Illinois, conversion facility that
         would produce anhydrous hydrogen fluoride. (See
         Appendix B.)




Page 3                                                   Background
Unsolicited Proposal Process Not Followed
DOE Unsolicited         DOE Order 4210.9A, “Unsolicited Proposals,” dated
Proposal Process        January 6, 1993, which was in effect when NE received
                        the General Atomics/AlliedSignal proposal, established
                        policies and procedures pertaining to the receipt,
                        processing, review, and evaluation of unsolicited
                        proposals received by the Department, as well as related
                        documentation requirements. An “unsolicited proposal”
                        was defined as “a written proposal or application that is
                        submitted to an agency on the initiative of the submitter
                        for the purpose of obtaining a contract with or financial
                        assistance from the Government and which is not in
                        response to a formal or informal request (other than an
                        agency request constituting a publicized general
                        statement of needs).” Unsolicited proposals received by
                        any Departmental Element were to be forwarded to the
                        Unsolicited Proposals Coordinator (within the Office of
                        Procurement and Assistance Management) for processing
                        in accordance with the order; unsolicited proposals were
                        to be reviewed in accordance with specified requirements;
                        and funding decisions were to be justified in writing.

Proposal Not Correctly We believe the General Atomics/AlliedSignal proposal fell
Processed              within the definition of an unsolicited proposal and was,
                       therefore, required to be processed in accordance with
                       Departmental policies and procedures pertaining to
                       unsolicited proposals. However, NE did not process the
                       proposal in accordance with these policies and
                       procedures; instead, after obtaining input from his staff
                       (which apparently included NE contractor input), the
                       Director of NE had his staff pursue award of a contract
                       based on the proposal. NE contacted PETC, with the
                       objective of quickly putting a contract in place with
                       General Atomics/AlliedSignal. PETC determined that the
                       scope of its requirements contract with Burns and Roe
                       Services Corporation (BRSC) included language that
                       could allow the work to be included under the contract.
                       PETC advised us that under its requirements contract with
                       BRSC, PETC was obligated to offer the work to BRSC
                       first. BRSC decided to accept the work and issue a
                       subcontract to General Atomics, which would then
                       subcontract to AlliedSignal. In October 1996, PETC
                       issued BRSC a Request for Support Services pertaining
                       to the pilot project. However, BRSC did not have the
                       technical expertise to oversee the subcontract with


Page 4                                                         Details of Finding
                   General Atomics; rather, this expertise resided with a
                   sister company, Burns and Roe Enterprises, Inc. (BRE),
                   with which BRSC had a subcontract. In November 1996,
                   BRE issued a letter contract to General Atomics, and a
                   definitive contract between the two companies was
                   executed effective July 1, 1997.

Management Costs   We learned that management costs associated with the
Increased          contract increased significantly over initial estimates.
                   DOE funding for this project came from NE and the Office
                   of Environmental Management (EM). BRE’s contract with
                   General Atomics was a cost-sharing agreement, with
                   DOE’s share not to exceed $3,376,000 of an estimated
                   $6,752,000 project cost. Originally, other costs were
                   estimated as follows: National Environmental Policy Act
                   (NEPA) compliance--$365,000; PETC--$225,900; and
                   BRSC, to include BRE--$389,000. Thus, the initial total
                   estimated management costs for PETC and BSRC were
                   $614,900. We noted BRE’s overhead rates were
                   significantly higher than BRSC’s overhead rates, which we
                   were told was due to BRE’s greater expertise.

                   As a result of being able to obtain a “Categorical
                   Exclusion,” actual NEPA costs only amounted to
                   approximately $50,000. We were told the remaining
                   NEPA funds (approximately $315,000) were retained by
                   PETC, primarily to help cover BRSC costs associated with
                   a 3-month extension to the contract effort. PETC also
                   requested an additional $60,000 to cover management
                   costs. As a result, the total projected management costs
                   for PETC and BRSC became almost $1 million.

                   In a May 14, 1999, letter, FETC advised that: “. . .the
                   actual management cost for BRSC was $532,241.00 and
                   the actual FETC’s cost recovery was $361,354.00 for a
                   total of $893,595.00. All invoices have been paid except
                   for the close-out of the entire contract which may cause an
                   adjustment of about 10% due to the difference between
                   the provisional and actual overhead rates on the BRSC
                   contract.” A 10 percent adjustment could add over
                   $89,000 to the management cost, for a total of
                   approximately $983,000.




Page 5                                                     Details of Finding
         We did not conduct a detailed review of the financial
         aspects of this contract. However, on April 5, 1999, the
         Office of Audit Services, OIG, issued a report on “The U.S.
         Department of Energy’s Funds Distribution and Control
         System at the Federal Energy Technology Center.” The
         report contains findings and conclusions regarding
         improvements needed in FETC’s funds distribution and
         control system, such as in its allocation of indirect costs.




Page 6                                            Details of Finding
Lack of Competition in Contract Award
Competitive           The “Competition in Contracting Act of 1984” established
Contracting           that, in conducting a procurement for property or services,
Required              executive agencies shall obtain full and open competition
                      through the use of competitive procedures unless the
                      procurement falls within the parameters of certain
                      specified exceptions, and lack of advance planning shall
                      not be the basis for using other than full and open
                      competition. Further, the Act states that in preparing for
                      the procurement of property or services, an executive
                      agency shall specify its needs and solicit bids or proposals
                      in a manner designed to achieve full and open competition
                      for the procurement; use advance procurement planning
                      and market research; and develop specifications in such a
                      manner as is necessary to obtain full and open
                      competition. Various regulations and directives applicable
                      to the Department have been promulgated that contain
                      similar language and requirements and establish
                      implementing policies and procedures to ensure
                      appropriate competition in acquisitions.

NE Awarded Contract   NE had a programmatic need to identify and pursue
Without Competition   methods for managing the Department’s inventory of
                      depleted UF6; a programmatic report stated it was likely
                      that proposals pertaining to technologies and uses
                      associated with depleted UF6 would be solicited; and NE
                      was aware that a number of entities were interested in and
                      capable of participating in the Depleted Uranium
                      Hexafluoride Management Program, as exemplified by the
                      51 technically feasible recommendations received in
                      connection with NE’s “Request for Recommendations.”
                      Nonetheless, as described above, NE caused a contract
                      to be awarded, without competition, based on the General
                      Atomics/AlliedSignal unsolicited proposal.

                      We also noted from documentation obtained from NE that
                      there appeared to have been some concern among NE
                      staff and contractors regarding a noncompetitive award of
                      a contract to General Atomics/AlliedSignal for the pilot
                      project. For example, regarding the feasibility of a sole
                      source procurement to General Atomics, one
                      memorandum stated this would be “difficult and tedious,”
                      but best justified through acceptance of an unsolicited
                      proposal from General Atomics if the proposal met certain
                      criteria, e.g. was innovative or unique. However, another
                      memorandum stated that other entities had recommended

Page 7                                                         Details of Finding
                  means of converting the depleted UF6 and producing
                  byproducts, including two companies (Cameco and
                  COGEMA) also capable of producing anhydrous hydrogen
                  fluoride, and that: “. . . establishing uniqueness or novelty
                  for the AS/GA [AlliedSignal/General Atomics] process will
                  be difficult.” According to the memorandum, preliminary
                  discussions with procurement officials indicated that
                  having a patent was not sufficient justification for a sole
                  source procurement. Also, the memorandum stated that
                  staff will “investigate the use of existing initiatives, such as
                  CRADA [Cooperative Research and Development
                  Agreement] announcements, that could serve as a vehicle
                  for such cooperative work.” A memorandum documenting
                  a discussion with EM staff about supporting the General
                  Atomics/AlliedSignal proposal stated that EM was
                  considering work in the area, but intended to use a
                  competitive process since many companies were
                  interested in doing the conversion work.

                  In addition, NE has considered funding of other unsolicited
                  proposals with application to the Depleted Uranium
                  Hexafluoride Management Program, but without the
                  benefit of having formally solicited proposals as described
                  in acquisition regulations. An NE official advised us that,
                  besides the pilot project, the ideas of at least two other
                  companies were being considered for funding under the
                  Program. Given NE’s identified programmatic needs, we
                  believe that by not formally soliciting proposals for work
                  under the Depleted Uranium Hexafluoride Management
                  Program, yet giving funding consideration to unsolicited
                  proposals, NE is not appropriately pursuing full and open
                  competition.

RECOMMENDATIONS   We recommend that the Director, Office of Nuclear
                  Energy, Science and Technology:

                         1. Ensure that unsolicited proposals received by
                         NE are processed in accordance with applicable
                         Departmental policies and procedures.

                         2. Ensure that, consistent with Federal
                         requirements for competition in contracting, NE
                         solicits proposals for its Depleted Uranium


Page 8                                       Recommendations and Comments
                          Hexafluoride Management Program that will
                          foster the Department’s pursuit of effective
                          disposition of its depleted UF6.

    MANAGEMENT      By memorandum dated September 13, 1999, the
    COMMENTS        Director of NE provided the following comments
                    regarding our recommendations:

                          “. . . NE agrees with the IG’s basic concern that
                          unsoliticited [sic] proposals must be handled
                          properly. While senior officials at the time of the
                          incident in question did not consider the
                          materials provided by General Atomics to
                          constitute an unsolicited proposal, it is the
                          judgment of current NE management that these
                          materials should have been treated as such.
                          The Director of NE will instruct all staff to
                          critically assess all future written information
                          from outside parties that could result in an award
                          of new work and assume that such materials
                          should be processed through the unsolicited
                          proposal process in accordance with applicable
                          DOE policies and procedures. NE’s intention
                          remains to use competitive mechanisms in the
                          pursuit of effective disposition of depleted UF6.

                         “. . . While NE had a formal process in place to
                          solicit proposals and process unsolicited
                          proposals for its Depleted Uranium Hexafluoride
                          Management Program, NE did not apply that
                          process in this instance. NE’s decision not to
                          apply this process was because of the belief at
                          that time the proposal was not an unsolicited
                          proposal within the definition of DOE’s
                          unsolicited proposal process. FETC assured
                          the program office that the project, as it was
                          presented by NE, was appropriate for FETC’s
                          implementation and in accordance with all rules
                          and regulations.”

INSPECTOR COMMENT   We believe management’s comments are responsive
                    to our recommendations.




  Page 9                                Recommendations and Comments
Appendix A
SCOPE AND     This inspection was performed at Department of Energy
METHODOLOGY   Headquarters and the Federal Energy Technology Center
              (FETC) from May 1998 to February 1999. We interviewed
              officials from the Office of Nuclear Energy, Science and
              Technology; the Office of Procurement and Assistance
              Management; the Office of the General Counsel; FETC;
              Burns and Roe Services Corporation; and Burns and Roe
              Enterprises, Inc. In addition, we reviewed pertinent
              program documentation and applicable laws, regulations,
              and directives.

              This inspection was conducted in accordance with the
              “Quality Standards for Inspections” issued by the
              President’s Council on Integrity and Efficiency.




Page 10                                       Scope and Methodology
Appendix B

                  Reconversion of Depleted Uranium Hexafluoride
           to Uranium Oxide for Subsequent Use or Long-Term Storage

                                    General Atomics
                                      AlliedSignal

      Proposal
      General Atomics and AlliedSignal, Inc. herein propose to the Department of
      Energy to undertake a cooperative pilot-scale demonstration of technologies
      developed by the proposers intended to address the long-term disposition of
      DOE's inventory of depleted uranium hexafluoride (DUF6).

      Background
      The DOE has more than 50,000 large canisters in storage at three major
      sites which hold about 1.2 billion pounds of DUF6 tails remaining from more
      than four decades of uranium enrichment. The United States Enrichment
      Corporation currently produces about 1500 additional cylinders (about
      40,000 pounds) of DUF6 each year in ongoing enrichment activities. DUF6
      is unstable and hazardous if released, and certain of the stored canisters
      have either breached or show signs of significant corrosion. A solution is
      required to stabilize the uranium and provide for safe, long-term storage or
      disposal and make the uranium available for viable products, such as
      shielding material for spent nuclear fuel. DOE has called for ideas on how
      to deal with the DUF6 and is in the process of evaluating various
      approaches and options.

      Proposed Approach
      General Atomics and AlliedSignal have developed a simple chemical
      process that reconverts the DUF6 to depleted U3O8, the compound from
      which UF6 entering the enrichment process was originally made and which is
      uranium's most stable form. In the process, a byproduct of commercial-
      quality anhydrous hydrogen fluoride (AHF) is also produced. The method
      utilizes processes and technologies that are already in use in the production
      of UF6 by AlliedSignal and to which General Atomics has contributed its
      patented AHF recovery technology. The process occurs in a relatively low-
      temperature regime and therefore does not require exotic materials or
      equipment. The development accomplished to date under corporate funding
      has brought the process to a stage that next requires a pilot plant
      demonstration from which a production plant can reasonably be scaled. It is
      such a demonstration program that is proposed here.




Page 11
      Statement of Work
      Under this project, General Atomics and AlliedSignal will design, fabricate,
      construct, operate and evaluate a 100-lb/hr UF6 throughput pilot plant at
      AlliedSignal's Metropolis, IL, UF6 conversion facility that will convert natural
      (as opposed to depleted) UF6 to U3O8 and produce commercial-purity
      anhydrous HF in a steady state demonstration. Natural UF6 will be used in
      the demonstration to remain consistent with license requirements at the
      AlliedSignal conversion facility. The pilot plant is to demonstrate all
      necessary steps and processes of the conversion and to produce the data
      that are required to design a full-size production plant - envisioned to have a
      throughput of 2100 cylinders (56.5 million pounds) per year. The process
      will demonstrate acceptable purity of products such that safe storage and/or
      use is viable. The storage characteristics of the depleted U3O8 will also be
      evaluated.

      Cost and Schedule
      The estimated cost for this project is $6.8 million and includes an
      appropriate demonstration period. It is proposed that the costs be shared
      equally between the proposers, as a team, and DOE, or $3.4 million each. It
      is further proposed that DOE's maximum obligation is to be $3.4 million with
      the proposers being responsible for any expenses over $6.8 million total.
      Rights to the technology are to remain with the proposers.

      The total duration of the project is to be approximately fifteen months, the
      last three of which would be the actual demonstration operation. Once
      approval is given, a detailed cost and schedule plan will be developed. It is
      anticipated that the schedule and associated costs will include the latter part
      of FY96 and all of FY97.

      Follow-On Plan
      The proposers presume that DOE will ultimately decide, based on the results
      of this activity as well as other investigations, what direction it will take in the
      future management of its DUF6 responsibilities and will subsequently release
      a Request for Proposal to meet specified requirements.




      June 3, 1996



Page 12
                                   DUF6 PILOT PLANT
                                 Cost Estimate Breakdown
                                          ($000)

      Operations Costs

      Raw Materials                                        396

      Direct Variable Costs                                  17
             Utilities, Transportation

      Direct Fixed Costs                                   404
             Labor, Maintenance, Supplies

      Indirect Fixed Costs                                 683
             D&D, Plant Admin, Inspection

      Joint Venture Management                             263

      AHF Credit                                            (11)

             Subtotal Operations                                   1,752

      Construction Costs

      NRC & EPA License/Permits                              61

      Pre-Startup Safety Review                              15

      Startup Labor & Training                             117

      Startup Expenses                                     185

      Initial Provisioning                                  50

      Capital Estimate                                     4,000

      Construction                                         150

      Building/Facility Mods                               100

             Subtotal Construction                                 4,678
             Total Estimate (1994 $)                               6,430
             Escalated to 1996 $@                   1.05           6,752

Page 13
                                                              IG Report No. INS–O-00-02


                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

       1.      What additional background information about the selection,
               scheduling, scope, or procedures of the audit or inspection
               would have been helpful to the reader in understanding this
               report?

       2.      What additional information related to findings and
               recommendations could have been included in this report to
               assist management in implementing corrective actions?

       3.      What format, stylistic, or organizational changes might have made
               this report's overall message more clear to the reader?

       4.      What additional actions could the Office of Inspector General have
               taken on the issues discussed in this report which would have been
               helpful?

Please include your name and telephone number so that we may contact you should we
have any questions about your comments.

Name ____________________________ Date_____________________

Telephone _______________________ Organization_____________

When you have completed this form, you may telefax it to the Office of Inspector General
at (202) 586-0948, or you may mail it to:

                             Office of Inspector General (IG-1)
                                U.S. Department of Energy
                                  Washington, D.C. 20585
                                ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                       following alternative address:


                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov


      Your comments would be appreciated and can be provided on the Customer Response Form
                                     attached to the report.
